     DEPARTMENT OF HOMELAND SECURITY

      Ofﬁce of Inspector General


        DHS Needs to Strengthen Controls For
        Remote Access to Its Systems and Data
                    (Redacted)




Notice: The Department of Homeland Security, Ofﬁce of the Inspector General, has redacted
this report for public release under the Freedom of Information Act, 5 U.S.C. § 552 (b)(2).




     Ofﬁce of Information Technology
OIG-05-03                                      November 2004
                                                                  Ofﬁce of Inspector General

                                                                  U.S. Department of Homeland Security
                                                                  Washington, DC 20528




                                            Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special
reports prepared by the OIG as part of its DHS oversight responsibility to identify and prevent
fraud, waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of controls over remote access to DHS
resources. It is based on interviews with employees and ofﬁcials of relevant agencies and
institutions, direct observations, technical scans, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                            Clark Kent Ervin
                                            Inspector General
                                                                                                                       Contents


     Introduction ...............................................................................................................................3

     Results in Brief .........................................................................................................................4

     Background ...............................................................................................................................5

     Findings ....................................................................................................................................6

         Remote Access Security Procedures Have Not Been Fully Developed And Implemented . 6

        Remote Access Hosts Are Vulnerable....................................................................................9

        Miscellaneous Issue .............................................................................................................15

     Recommendations ....................................................................................................................15

     Management Comments And Our Evaluation .........................................................................16


Appendices

  Appendix A:              Purpose, Scope, and Methodology.................................................................                    18
  Appendix B:              Management’s Response................................................................................               20
  Appendix C:              User Administration Processes ......................................................................                22
  Appendix D:              Account Policy Settings .................................................................................           23
  Appendix E:              Vulnerabilities Identiﬁed ................................................................................          25
  Appendix F:              Major Contributors to This Report ................................................................                  26
  Appendix G:              Report Distribution ........................................................................................        27


Abbreviations

  ATL                            Advanced Technology Laboratory
  CIO                            Chief Information Ofﬁcer
  CIS                            Bureau of Citizenship and Immigration Services
  DHS                            Department of Homeland Security



                            DHS Needs to Strengthen Controls For Remote Access                                                                 Page 1
Contents

   DHS Handbook     DHS Sensitive Systems Handbook
   DHS Management   DHS Management Directorate
   EP&R             Emergency Preparedness and Response Directorate
   FISMA            Federal Information Security Management Act of 2002
   FISCAM           Federal Information System Controls Audit Manual
   GAO              Government Accountability Ofﬁce
   ICE              Bureau of Immigration and Customs Enforcement
   ID               Identiﬁcation
   ISS              Internet Security Systems
   ISSO             Information Systems Security Ofﬁcer
   NIST             National Institute of Standards and Technology
   NSA              National Security Agency
   NT               Windows New Technology (Microsoft)
   OIG              Ofﬁce of Inspector General
   SP               Special Publication
   TSA              Transportation Security Administration




Page 2                         DHS Needs to Strengthen Controls For Remote Access
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                 The Ofﬁce of Inspector General (OIG) audited the security program of the
                                 Department of Homeland Security (DHS) and its components1 to control remote
                                 access to DHS networks. Insofar as remote access capabilities can signiﬁcantly
                                 increase security risks to its networks, DHS must ensure strong security controls
                                 over remote access and dial-in capabilities.

                                 Our objective was to determine whether DHS had provided system security,
                                 integrity, and control over remote access to its computer systems and data. The
                                 audit focused on wire based remote access to DHS systems and resources,
                                 including dial-in access through modems and access through the Internet.

                                 We interviewed DHS ofﬁcials, reviewed remote access policy and procedure
                                 documents, and performed technical scans of 53 remote access hosts.2
                                 Additionally, we analyzed password strength and account policy settings and
                                 performed modem discovery tests on 2,868 analog phone lines.

                                 To perform these tests, we used three commercial, off-the-shelf products:
                                 Internet Security Systems’ (ISS) Internet Scanner 7.0, @stake’s L0phtCrack
                                 5.02, and Sandstorm Enterprises’ PhoneSweep 4.0. Upon completion of the
                                 tests, we provided each component with technical reports detailing the speciﬁc
                                 vulnerabilities detected on their networks and the actions needed for remediation.

                                 Fieldwork was conducted from April through August 2004 at DHS’ Ofﬁce of
                                 the Chief Information Ofﬁcer (CIO), ﬁve DHS components, and the OIG’s
                                 Advanced Technology Laboratory (ATL).3 See Appendix A for purpose, scope,
                                 and methodology.


    1
      DHS “components” are deﬁned as directorates, including organizational elements and bureaus, and critical agencies.
    2
      In this report we used the term “host(s)” to refer to those servers and devices providing remote access capabilities, including Microsoft
    Windows New Technology (NT) and Windows 2000 domain controllers, Microsoft Exchange Servers, Cisco Systems Access Servers, and
    virtual private network concentrators.
    3
      The ATL supports DHS OIG’s capability to perform effective and efﬁcient technical assessments of DHS information systems and
    diverse operating environments. The ATL is a collection of hardware and software that allows the simulation, testing, and evaluation of the
    computing environments that are most commonly used within DHS.


                                  DHS Needs to Strengthen Controls For Remote Access                                                   Page 3
Results in Brief
                             DHS does not provide adequate or effective system security controls over remote
                             access to its computer systems and data. While DHS has established policy
                             governing remote access, and has developed procedures for granting, monitoring,
                             and removing user access, these guidelines have not been fully implemented by
                             the components because they are still developing processes or they are waiting to
                             obtain automated tools to assist them in performing these functions. Further, DHS
                             has not established conﬁguration guidelines for the hosts providing remote access
                             to its networks.

                             In addition, DHS components have not established effective system controls
                             on remote access. Speciﬁcally: (1) remote access hosts do not provide strong
                             protection against unauthorized access; (2) systems were not appropriately
                             patched;4 and (3) modems that may be unauthorized were detected on DHS
                             networks. Due to these remote access exposures, there is an increased risk that
                             unauthorized people could gain access to DHS networks and compromise the
                             conﬁdentiality, integrity, and availability of sensitive information systems and
                             resources.

                             Subsequent to the completion of our audit work, ofﬁcials from each of the
                             components said that they had taken or planned corrective action to address many
                             of the vulnerabilities identiﬁed in our review. However, we did not verify that the
                             problems had been resolved.

                             Our report includes three recommendations that will assist DHS in remedying the
                             deﬁciencies identiﬁed. Speciﬁcally, the CIO should:

                                   •     Update the DHS Sensitive Systems Handbook (DHS Handbook) to
                                         include implementation procedures and conﬁguration settings for remote
                                         access to DHS systems.

                                   •     Ensure that procedures for granting, monitoring, and removing user
                                         access are fully implemented.

                                   •     Ensure that all necessary system and application patches are applied in a
                                         timely manner.


4
 A patch, also known as a “hotﬁx” or “service pack,” is a piece of software published by the manufacturer of a software application to
correct errors or bugs in the software.


Page 4                                            DHS Needs to Strengthen Controls For Remote Access
             In response to our draft report, the DHS CIO concurred with our
             recommendations and stated that many of them have been incorporated into
             DHS’ planning and are now reﬂected in the Department’s program objectives
             and milestones. DHS’ response is summarized and evaluated in the body of this
             report and included, in its entirety, as Appendix B.

Background
             Within DHS remote access provides trusted computer users access to DHS
             networks by dialing in via modem or via the Internet. There are numerous
             advantages associated with the use of remote access. For example, remote access:

                 •    Allows employees to have ﬂexible work schedules.

                 •    Provides teleworkers or employees on travel the ability to access the
                      network and resources, such as email messages, ﬁles, databases, and
                      applications.

                 •    Permits administrators to identify and resolve network or system
                      problems remotely.

                 •    Increases employee productivity because of an improved work and
                      home-life balance.

                 •    Reduces operational overhead such as ofﬁce space, infrastructure costs,
                      and less sick leave.

                 •    Reduces trafﬁc congestion and commuting times.

                 •    Provides more job opportunities and lessens the commute for
                      disadvantaged workers.

             While there are several advantages associated with providing DHS employees
             remote access, there are also numerous security concerns related to granting
             and maintaining remote access to government systems and resources. High-
             speed internet access technologies, such as cable modems, digital subscriber
             lines, satellites, and wireless devices, allow for increased transmission speed and
             bandwidth. These technologies make it easier for remote users to access and
             transfer large amounts of data, and allow users to be online for longer periods.



             DHS Needs to Strengthen Controls For Remote Access                            Page 5
                             However, these technologies also increase the risk that unauthorized users will
                             gain access to DHS systems and resources.

                             The Federal Information Security Management Act (FISMA) of 2002,5 requires
                             each agency to develop, document, and implement an agency-wide information
                             security program to provide security for the information and information systems
                             that support the operation and assets of the agency. Agency policies should ensure
                             that information security is addressed throughout the life-cycle of each agency
                             information system and prescribe minimally acceptable system conﬁguration
                             requirements.

                             DHS Sensitive Systems Policy Publication 4300A addresses access controls,
                             including remote access and dial-in capabilities. The policy requires that DHS
                             components ensure that strong authentication and access controls are implemented
                             for remote access. The department developed the DHS Handbook to provide
                             components with speciﬁc techniques and procedures for implementing the
                             requirements of this policy.


Findings

    Remote Access Security Procedures Have Not Been Fully Developed
    And Implemented
                             DHS has not developed and implemented the security procedures necessary to
                             control remote access to its networks adequately and effectively. While DHS
                             has established a policy governing remote access and has developed procedures
                             for user administration,6 these guidelines have not been fully implemented by the
                             components.7 Further, DHS has not established implementation and conﬁguration
                             guidelines for the hosts providing remote access to its networks. As a result, there
                             is greater risk that the controls implemented to protect DHS networks may not
                             prevent unauthorized access to the department’s systems and data.


5
  Title III, E-Government Act of 2002, P.L. 107-347, December 17, 2002.
6
  According to National Institute of Standards and Technology Special Publication 800-14, user administration incorporates: (1) user
account management, including processes for requesting, establishing, issuing, and closing user accounts; tracking users and their
respective access authorizations; and managing these functions; (2) audit and management reviews of user account management; and,
(3) the timely modiﬁcation or removal of access.
7
  See Appendix C for a detailed description of recommended procedures for user administration, including granting, monitoring, and
removing user access.


Page 6                                            DHS Needs to Strengthen Controls For Remote Access
                             Remote Access User Administration Needs Improvement

                             Although DHS has developed procedures for granting, monitoring, and removing
                             user access, these guidelines have not been implemented fully by the components.
                             Speciﬁcally:

                                   •

                                                                                          said that they had not
                                        implemented effective exit procedures to ensure that access is removed
                                        in a timely manner upon employee separation or transfer. DHS policy
                                        requires that components implement procedures to ensure system access
                                        is revoked for employees or contractors who either leave DHS or are
                                        reassigned to other duties. In addition, the National Institute of Standards
                                        and Technology (NIST) Special Publication (SP) 800-14 requires that
                                        a standard set of processes be implemented governing friendly and
                                        unfriendly8 termination, including removal of access privileges, computer
                                        accounts, and authentication tokens.9 Additionally, the U.S. Government
                                        Accountability Ofﬁce’s (GAO) Federal Information System Controls
                                        Audit Manual (FISCAM) requires that exit processes ensure that security
                                        management is notiﬁed immediately of terminations and that access to
                                        the entity’s resources and facilities, including passwords, is promptly
                                        removed.

                                   •                                         had not implemented procedures to
                                        review audit trails periodically or logs of remote access activity and
                                        documenting the completion of such reviews. In addition, though
                                        ofﬁcials from

                                                    that they conducted periodic reviews, ofﬁcials from these
                                        components said that they did not document the completion of these
                                        activities. According to NIST SP 800-14, audit trails should be reviewed
                                        periodically to provide individual accountability, reconstruction of
                                        events, intrusion detection, and problem identiﬁcation. Further, the

8
  NIST SP 800-12 deﬁnes friendly termination as the removal of an employee from the organization when there is no reason to believe that
the termination is other than mutually acceptable. Unfriendly termination is deﬁned as the removal of an employee under involuntary or
adverse conditions. NIST recommends that separate processes be developed for handling friendly and unfriendly terminations, including
additional security controls to prevent adverse events in the cases of unfriendly terminations.
9
  An authentication token is an object that a user possesses for the purpose of identiﬁcation and authentication. Tokens can be divided
into two categories: memory tokens such as bank or credit cards, which store information; and smart tokens such as Smart Cards, which
contain integrated circuits.


                              DHS Needs to Strengthen Controls For Remote Access                                                Page 7
                 DHS Handbook requires information systems security ofﬁcers (ISSO)
                 to review audit trails at least once per week or according to the system’s
                 security plan.

             •




                                                                     According to NIST
                 SP 800-12, application managers or data owners should review each
                 user’s access level every month and sign a formal access approval list to
                 provide a written record of authorization. In addition, FISCAM requires
                 that system owners periodically review access authorization listings
                 and determine whether they remain appropriate. The DHS Handbook
                 requires that system managers or owners revalidate all accounts at least
                 annually.

         According to DHS ofﬁcials, some of the user administration procedures noted
         above had not been implemented because the components were still developing
         auditing and management review processes, or waiting to obtain automated tools
         that would assist them in performing user administration functions.

         DHS Has Not Issued Detailed Remote Access Conﬁguration Guidance

         DHS has not established detailed implementation and conﬁguration procedures
         to ensure that remote access hosts provide strong protection against unauthorized
         access. The department plans to include detailed guidance in the DHS Handbook
         for the employment of remote access devices, user responsibilities, operating
         procedures, and other information pertaining to remote access administration.
         This section of the DHS Handbook has not been completed; however, DHS is
         still negotiating with its components to ensure that the minimum implementation
         requirements established in the guidelines are feasible.

         FISMA requires federal agencies to develop and maintain information
         security policies, procedures, and control techniques to address all applicable
         requirements. Further, FISMA requires federal agencies to develop, document,
         and implement policies and procedures that ensure compliance with the minimally
         acceptable system conﬁguration requirements determined by the agency.

Page 8                  DHS Needs to Strengthen Controls For Remote Access
                              Until effective user administration and remote access conﬁguration procedures
                              are established, DHS is at increased risk that remote access may not be adequately
                              controlled and remote access devices may not be appropriately conﬁgured. As a
                              result, the risks associated with providing remote access to DHS networks may
                              not be adequately addressed.

     Remote Access Hosts Are Vulnerable
                              DHS has not established effective system controls on remote access hosts. To
                              assess the security of remote access to DHS networks, we: (1) performed
                              vulnerability assessment scans to identify conﬁguration weaknesses and
                              vulnerabilities on the hosts providing remote access capabilities;10 (2) analyzed
                              account policy settings11 to verify that remote access hosts were properly
                              conﬁgured; (3) conducted password strength analyses to determine whether the
                              use of strong passwords was enforced; and, (4) performed modem discovery tests
                              to locate any unauthorized modems operating on DHS networks. In assessing the
                              effectiveness of remote access controls, we identiﬁed several problems related to
                              remote access host conﬁgurations, system patching, and the control of modems.
                              These control weaknesses could provide an attacker with the ability to gain
                              inappropriate access to DHS information systems and resources.

                              Remote Access Hosts Were Not Appropriately Conﬁgured

                              Many of the hosts that we tested were not conﬁgured to protect against
                              unauthorized access. Speciﬁcally:

                                    •     DHS components did not enforce strong identiﬁcation or authentication
                                          measures according to DHS requirements, NIST guidelines, and National
                                          Security Agency (NSA) recommendations. For each network reviewed,
                                          we sampled a single remote access domain and tested for appropriate
                                          account policy parameter settings. With the exception of DHS
                                          management, each component had weak or inappropriate conﬁguration
                                          settings:12
10
   The tested hosts included Microsoft Windows NT and Windows 2000 domain controllers, Microsoft Exchange Servers, Cisco Systems
Access Servers, and virtual private network concentrators.
11
   Account policy settings are a series of system security conﬁgurations that control almost every aspect of user passwords, including initial
creation of the password, changing the password, and forgotten passwords. The account policy section is broken down into three different
categories: (1) Password Policy, which conﬁgures the password itself, with regard to validity period, length of password, and complexity
of the password; (2) Account Lockout policy, which conﬁgures how the password will react when users fail to input their correct password
multiple times; and (3) Kerberos Policy, which controls the Kerberos ticketing for domain communications.
12
   See Appendix D for a detailed description of the parameter settings identiﬁed at each component, along with a discussion of the risks
associated with the use of those parameter settings.


                               DHS Needs to Strengthen Controls For Remote Access                                                     Page 9
                                          Further,                                   had several high and medium
                                          risk vulnerabilities relating to account and password administration.
                                          These vulnerabilities included:

                                          -- Administrator, user, and guest accounts with no password required.
                                          -- An administrator account with a password that was the same as the
                                             user identiﬁcation (ID).
                                          -- Accounts with blank passwords.
                                          -- User accounts assigned inappropriate systems privileges that could
                                             be used to access or modify any ﬁle on the system.

                                          The absence of adequate identiﬁcation and authentication controls
                                          enabled users and administrators to create weak passwords on devices
                                          providing remote access to DHS networks. To determine the extent of
                                          the use of weak passwords, we sampled a single remote access domain
                                          at each component and ran user information, dictionary, and hybrid
                                          dictionary attacks14 to identify accounts with weak or missing passwords.

13
   DHS has also established conﬁguration guidelines for password reuse. However, these guidelines differ from the NIST and NSA
recommendations (See Appendix D for a comparison).
14
   In a user information attack, the password cracking software encrypts, i.e., hashes, data from each account’s password ﬁeld, such as the
account’s user ID, and compares it to the password to determine whether any of the accounts have a password based on this information.
In a dictionary attack, the password cracking software encrypts all the words in a dictionary ﬁle and compares every result with the
password hash to determine whether there are any matches. In a third type of attack, known as a hybrid dictionary attack, numbers or
symbols are appended to each word in the dictionary ﬁle.


Page 10                                            DHS Needs to Strengthen Controls For Remote Access
                                           Next, we analyzed the test results to identify accounts with passwords
                                           that did not comply with DHS, NIST, and NSA password complexity
                                           requirements. Each of the components had a signiﬁcant number of
                                           accounts with weak passwords.




                                           The following table details the password test results for each of the
                                           components.


                Table 1: Results Of Password Strength Analysis On Remote Access Domains
                                                                          Passwords Cracked                   Cracked passwords not
                                           Accounts with             (Number and Percent of total)            meeting DHS guidelines
                           Number of       No Password                                                            and NIST/NSA
      Component                                                User Info/      Hybrid
                           Accounts         (Number and                                                       recommended settings
                            Tested         Percent of total)   Dictionary     Dictionary         Total           (Number and Percent
                                                                 Attack         Attack                                of total)
                                                 23                61            523             584
                              6,579                                                                                  461 (7.01%)
                                              (0.35%)           (0.93%)        (7.95%)         (8.88%)
                                                  8               981                            981
                             41,486                                             N/A(a)                             939 (2.26%)(a)
                                              (0.02%)           (2.36%)                       (2.36%)(a)
                                                  0               837            819             1,656
                              4,532                                                                                1,605 (35.41%)
                                                (0%)           (18.47%)       (18.07%)         (36.54%)
                                                 34               714           4,032           4,746
                             58,287                                                                                 4,451 (7.64%)
                                              (0.06%)           (1.22%)        (6.92%)         (8.14%)
      (a)
            Due to a technical problem involving the password auditing software and the ﬁle obtained from           for testing, we were
            not able to complete the hybrid dictionary attack portion of the password strength analysis for this component. Thus, the
            ﬁgures presented above for         are for the dictionary and user information attacks only.


                                            DHS policy requires that system ISSOs determine and enforce
                                            appropriate measures to ensure that strong passwords are used. Further,
                                            the DHS Handbook and NIST SP 800-18 require that passwords contain
                                            a combination of alphabetic, numeric, and special characters. According
                                            to NSA, passwords should also contain upper and lowercase characters.

                                      •    DHS components did not properly conﬁgure remote access hosts.16
                                           For example, the remote access hosts had the following conﬁguration

15


16
   See Appendix E for a detailed description of the vulnerabilities identiﬁed at each component, including those related to conﬁguration
weaknesses and those resulting from missing or inappropriately applied system patches.



                                DHS Needs to Strengthen Controls For Remote Access                                                    Page 11
                                           weaknesses that could allow attackers to gain valuable information or
                                           compromise the integrity of the system:




                                           Table 2 illustrates the number of hosts, by component, that contained
                                           conﬁguration weaknesses.


                                                     Table 2: Conﬁguration Weaknesses Identiﬁed
                               Number             Number of Hosts with High or Medium Risk Conﬁguration Weaknesses
          Component            of Hosts
                                                  1                 2                 3              4 or More        Total With 1 or
                               Tested(a)
                                               Weakness         Weaknesses        Weaknesses        Weaknesses       More Weaknesses
                                                                   3 Hosts                            3 Hosts             6 Hosts
                                  10                0                                   0
                                                                    (30%)                              (30%)               (60%)
                                                 1 Host                              2 Hosts          4 Hosts             7 Hosts
                                  14                                  0
                                                  (7%)                                (14%)            (29%)               (50%)
                                                 1 Host                                               3 Hosts             4 Hosts
                                  11                                  0                 0
                                                  (9%)                                                 (27%)               (36%)
                                                                   4 Hosts                            2 Hosts             6 Hosts
                                  18                0                                   0
                                                                    (22%)                              (11%)               (33%)
          (a)
                For each network reviewed, we selected a remote access domain and conducted vulnerability scans on each of the hosts in
                the domain.


                               Because of weak account policy settings, passwords, and remote access host
                               conﬁgurations, there is increased risk that an unauthorized person could obtain
                               or guess a user ID and password combination to gain access to DHS networks.
                               Passwords are often the ﬁrst lines of defense against hackers or insiders who
                               may be trying to obtain unauthorized access to a computer system. The use of
                               weak passwords, combined with inappropriate account policy settings and system
                               conﬁgurations, might allow unauthorized internal users and external hackers to



Page 12                                             DHS Needs to Strengthen Controls For Remote Access
                             gain access to DHS systems. This is why it is important that DHS components
                             have strong account policies, passwords, and system conﬁgurations.

                             Component ofﬁcials said that several of the account and conﬁguration weaknesses
                             noted above were the result of changes that occurred during system migrations
                             and were not subsequently corrected. In addition, according to a
                                                    the creation of strong passwords had not been enforced on
                             its network because of the likelihood that users would write down their passwords
                             in an accessible place, which may lead to password compromise. However,
                             security training and enforcement can decrease the risk of users’ writing down
                             their passwords in accessible locations.

                             System and Application Patches Were Not Applied

                             Hosts providing remote access capabilities to DHS systems and data were not
                             appropriately patched. Remote access hosts at each component were vulnerable
                             to buffer overﬂow attacks17 or other exploits due to missing or inappropriately
                             applied security patches.18 Speciﬁcally, according to our tests:




                             According to NIST SP 800-40, patching is critical to the operational availability,
                             conﬁdentiality, and integrity of information technology systems. Organizations
                             should establish a systematic, accountable, and documented process for handling
                             patches. DHS remote access hosts were highly vulnerable to attacks because


17
   A buffer overﬂow occurs when a program or process tries to store more data in a buffer (temporary data storage area) than it was intended
to hold. Since buffers are created to contain a ﬁnite amount of data, the extra information can overﬂow into adjacent buffers, corrupting
or overwriting the valid data held in them. Attackers can use this vulnerability to replace valid data on the system with their own code and
cause the system to fail or to execute their instructions.
18
   See Appendix E for the number of hosts tested and number of vulnerabilities detected at each component.



                               DHS Needs to Strengthen Controls For Remote Access                                                 Page 13
                             they were not appropriately patched. For example, servers at
                                              were vulnerable to a buffer overﬂow in the Microsoft Windows
                             Messenger service.19 By sending a




                             Subsequent to the completion of our audit work, ofﬁcials from each of the
                             components said that they had taken or planned to take corrective action to
                             address many of the account policy, password, conﬁguration, and patch issues that
                             we identiﬁed. However, we did not verify that these problems had been solved.

                             Modems On DHS Networks May Increase Risk Of Unauthorized Access

                             We detected possible unauthorized modems operating on DHS networks. During
                             our modem discovery tests, we identiﬁed modems on the analog lines of DHS
                             Management, EP&R, CIS, and ICE. DHS Management and EP&R provided us
                             with information regarding the mission requirement for each of the modems that
                             we detected on their networks or phone lines, along with some of the controls
                             implemented to reduce the risks associated with their use.

                             According to an ICE ofﬁcial, CIS and ICE were in the process of investigating
                             20 modems that we identiﬁed, but they were not able to provide a business
                             justiﬁcation for 18 of them. They were not able to provide a timely response,
                             according to an ICE ofﬁcial, due in part to inaccuracies in the CIS and ICE
                             database of telecommunications management information.

                             An unsecured modem or other dial-in facility could provide a backdoor for
                             internal and external unauthorized users to DHS networks. According to
                             FISCAM, dial-in access can signiﬁcantly increase the risk of unauthorized access,
                             and its use should be limited and the associated risks weighed against the beneﬁts.
                             Justiﬁcation for such access should be documented and approved by system
                             owners.




19
   The Windows Messenger service transmits messages between client computers and servers on a network. For example, network
administrators can use the Messenger service to send administrative alerts to network users, or it can be used by Windows to inform users
when a print job has been completed.


Page 14                                           DHS Needs to Strengthen Controls For Remote Access
  Miscellaneous Issue
              CIS Needs To Monitor Systems Security Functions

              CIS does not monitor sufﬁciently the security activities performed by ICE
              personnel on the systems and data supporting CIS operations. CIS and ICE
              were part of the former Immigration and Naturalization Service and continue
              to share the same network infrastructure, which is managed by ICE. However,
              CIS does not have a process to verify that ICE information technology staff is
              performing necessary security or user administration functions for CIS systems
              and personnel. Further, ICE ofﬁcials were not able to determine whether users
              granted remote access to the network were CIS or ICE personnel based on system
              records. According to CIS and ICE ofﬁcials, effective CIS oversight has not been
              established because the components have not completed a formal memorandum of
              agreement concerning their respective responsibilities.

              FISMA requires that senior agency ofﬁcials provide security for the information
              and information systems that support the operations and assets under their control.
              Without an established process to monitor the quality of user administration
              performed by ICE ofﬁcials, CIS lacks assurance that sufﬁcient security is
              provided for the systems and data supporting its operations.

Recommendations
              To enhance DHS’ guidance for remote access implementation, we recommend
              that the CIO:

                   1.   Update the DHS Sensitive Systems Handbook to include implementation
                        and conﬁguration procedures for remote access to DHS systems.

              To protect remote access to DHS networks effectively, we recommend that the
              CIO:

                   2.   Ensure that procedures for granting, monitoring, and removing user
                        access are fully implemented according to DHS requirements, as well as
                        NIST and FISCAM guidelines.

                   3.   Verify that all necessary system and application patches are applied in a
                        timely manner to reduce the risk of system compromise or failure.



               DHS Needs to Strengthen Controls For Remote Access                          Page 15
Management Comments and Our Evaluation
             We obtained written comments on a draft of this report from DHS. We have
             incorporated the comments where appropriate and included a copy of the
             comments in their entirety as Appendix B. DHS generally agreed with each
             of our recommendations. Below is a summary of DHS’ response to each
             recommendation and our assessment of the response.

             Recommendation 1: Update the DHS Sensitive Systems Handbook to include
             implementation and conﬁguration procedures for remote access to DHS
             systems.

             DHS plans to update the DHS Sensitive Systems Handbook with minimum
             requirements and conﬁguration guidance by February 2005. It is not DHS’ intent
             to issue “one size ﬁts all” procedures for the entire department. DHS agreed that
             exit procedures need to be clear and adhered to and access permissions should
             be periodically revalidated, but said that regular reviews of audit logs were not
             feasible due to the volumes of audit data and the lack of audit reduction tools.

             We accept DHS’ response to update the DHS Sensitive Systems Handbook with
             minimum requirements and conﬁguration guidance. We do not agree that our
             ﬁndings and recommendations imply that DHS must establish “one size ﬁts
             all” procedures for remote access. We maintain that procedures for granting,
             monitoring, and removing user access must be enforced; and the Department
             must establish conﬁguration guidelines for the hosts providing remote access
             to its networks. In addition, we also maintain that DHS should enforce the
             requirements outlined in the DHS Sensitive Systems Handbook for regular
             reviews of audit logs. As noted in the GAO FISCAM, security software should
             be implemented to analyze audit trail information and selectively identify
             unauthorized, unusual, and sensitive access activity.

             Recommendation 2: Ensure that procedures for granting, monitoring, and
             removing user access are fully implemented according to DHS requirements,
             as well as NIST and FISCAM guidelines.

             DHS will continue to work to enforce DHS requirements and, where appropriate,
             NIST and FISCAM guidelines. DHS also plans to reduce its reliance on
             passwords and move to stronger authentication technologies. However, where
             the use of passwords is still necessary, DHS policy requires the use of strong
             password controls, including strict limits on the number of failed logon attempts.


Page 16                     DHS Needs to Strengthen Controls For Remote Access
We accept DHS’ response to move toward stronger authentication technologies.
Nonetheless, many of the hosts we tested were not conﬁgured in accordance with
DHS requirements and had weak passwords and password controls, including
hosts that allowed an unlimited or excessive number of failed logon attempts.
Until stronger authentication technologies are employed and as long as passwords
are used as an identiﬁcation and authentication mechanism at DHS, strong
password controls must be enforced on DHS systems.

Recommendation 3: Verify that all necessary system and application patches
are applied in a timely manner to reduce the risk of system compromise or
failure.

DHS indicated that it will continue to strengthen its patch management. DHS also
noted that implementation of some of the patches was delayed so that the impact
on their systems could be tested.

We accept DHS’ response to continue to strengthen its efforts for effective patch
management. We agree that it is important to test the impact of system and
application patches prior to their implementation. However, we identiﬁed security
patches that the vendor released over six months before our review that had not
yet been implemented on some DHS systems. In addition, one host was missing
patches that were released in 1999 and 2000.




DHS Needs to Strengthen Controls For Remote Access                       Page 17
Appendix A
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                    The objective of this audit was to determine whether DHS had provided system
                    security, integrity, and control over remote access to its computer systems and
                    data. Speciﬁcally, we determined whether: (1) DHS developed adequate security
                    policies and procedures to grant and control remote access to system resources,
                    including the administration, conﬁguration, and use of remote access paths to
                    networks; and, (2) security controls were properly conﬁgured on applications
                    and systems providing remote access. For some controls, we determined their
                    adequacy, but we did not test their effectiveness. Our focus was on testing the
                    implementation of secure conﬁgurations on the hosts controlling remote access to
                    DHS networks.

                    The audit focused on wire-based remote access to DHS systems and resources,
                    including dial-in access through modems and access through the internet. We
                    did not examine wireless remote access, including satellite and microwave-based
                    access, during this audit. We conducted ﬁeldwork at the following locations:

                        •   DHS Management
                        •   Emergency Preparedness and Response (EP&R)
                        •   Bureau of Citizenship and Immigration Services (CIS)
                        •   Bureau of Immigration and Customs Enforcement (ICE)
                        •   Transportation Security Administration (TSA)

                    During the audit, we used three software tools to conduct internal and external
                    security tests to evaluate the effectiveness of controls implemented for remote
                    access. NIST SP 800-42 identiﬁes the following as common testing tools:

                        •   Internet Security Systems’ (ISS) Internet Scanner 7.0, which is a
                            component of the ISS Dynamic Threat Protection platform, was used to
                            detect and analyze vulnerabilities on DHS systems, including servers and
                            infrastructure devices.
                        •   @stake’s L0phtCrack 5.02, which is a password auditing and recovery
                            application, was used to analyze passwords that control remote access to
                            DHS systems and resources. We analyzed encrypted system passwords
                            to test for compliance with agency password policies or security best
                            practices.
                        •   Sandstorm Enterprises’ PhoneSweep 4.0, which is a telephone
                            scanner, was used for modem discovery and analysis, also known as




Page 18                            DHS Needs to Strengthen Controls For Remote Access
                                                                                        Appendix A
                                                                                        Purpose, Scope, and Methodology



                                        “war dialing.”20 PhoneSweep was used to dial a range of numbers,
                                        provided by the selected components, to identify modems and computers
                                        running remote access software to bypass the corporate ﬁrewall. Once
                                        an active modem was identiﬁed, we did not use PhoneSweep to establish
                                        a connection with the modem using standard user ID and password
                                        combinations.

                            Before the creation of DHS, both CIS and ICE were part of the former
                            Immigration and Naturalization Service; these components continue to share the
                            same infrastructure, which is managed by ICE. As a result, the technical scans
                            for CIS and ICE were combined. Upon completion of testing, we provided each
                            component the technical reports detailing the speciﬁc vulnerabilities detected on
                            their networks and the actions needed for remediation.

                            We conducted our audit between April and August 2004 under the authority of the
                            Inspector General Act of 1978, as amended, and according to generally accepted
                            government auditing standards. Major OIG contributors to the audit are identiﬁed
                            in Appendix F.

                            The principal OIG points of contact for the audit are Frank Deffer, Assistant
                            Inspector General for Information Technology Audits, at (202) 254-4100; and
                            Edward G. Coleman, Director, Information Security Audit Division,
                            at (202) 254-5444.




20
   Also synonymous with demon dialing, is a technique by which a computer would repeatedly dial a large number of telephone numbers to
ﬁnd test tones, computers, voice mailboxes, private branch exchanges, and government ofﬁces.



                             DHS Needs to Strengthen Controls For Remote Access                                              Page 19
Appendix B
Management’s Response




Page 20                 DHS Needs to Strengthen Controls For Remote Access
                                                     Appendix B
                                                     Management’s Response




DHS Needs to Strengthen Controls For Remote Access                  Page 21
Page 22
                                                     The following user administration functions should be performed, based on NIST SP 800-12 recommendations and GAO FISCAM guidelines. Different personnel, based on
                                                                                                                                                                                                                                                                                           Appendix C


                                                     the needs of the organization, can perform several of the functions listed below. For more information, please see NIST SP 800-12, An Introduction to Computer Security:
                                                     The NIST Handbook, and the FISCAM.
                                                        I. Account Creation                                                                                                                                                                                      (5) Account
                                                                                                                                                                                                                                                                 information is
                                                                                                                                                                                                                               Account Information               transmitted to user
                                                                                  Request for Access                              Access Approval                           Access Approval
                                                                                                                                                                                                          System              Transmit securely
                                                                                                                                Maintain approved                                                       Administrator
                                                                                                                   System       access requests on file      Security                                (4) System
                                                                                                                   Owner
                                                                                                                                                             Manager                                 Administrator creates
                                                                                                                                                                                                                                                                                           User Administration Processes




                                                                                                                                                                                                                                                                      User
                                                                User’s                                       (2) System Owner                                                                        account
                                                                                  Use standardized                                                         (3) Security
                                                              Supervisor                                     reviews and
                                                                                  forms, and the request                                                   Manager reviews
                                                                                                             approves access
                                                            (1) Supervisor        should include the                                                       approvals for                                            Security training should be provided to
                                                            requests access       level of access needed                                                   questionable access                                      each user and a Rules of Behavior             R.O.B. Doc.
                                                                                                                                                                                                                    document completed and maintained on
                                                                                                                                                                                                                    file

                                                       II. Account Removal                                                                                                                                                Note: Separate processes should be established for
                                                                                                                                                                                                                          friendly, i.e., mutually acceptable, and unfriendly
                                                                                                                                  Access Removal Request                                                                  employee separations, including additional security
                                                                           Access Removal Request                                                                                                                         precautions to prevent adverse events in the case of
                                                                                                                                                                                   System
                                                                                                                    System                                                       Administrator                            unfriendly terminations.
                                                                                                                    Owner                                                  (3) System
                                                                                                               (2a) System Owner                                           Administrator disables
                                                         User’s                                                records access                                              or deletes account
                                                       Supervisor                                              change and notifies
                                                      (1) Supervisor                                           systems office                                                                          (4) User completes
                                                                                                                                                              (2b) Security Manager                    exit checklist
                                                      notifies that
                                                                                                                                                              notified immediately,
                                                      access is no
                                                                                                                                                              either by the personnel
                                                      longer needed                                    Employee Departures                      Security      office or by others                                                    Exit Checklist        Exit checklist must be
                                                                                                                                                Manager
                                                                                                                                                                                                                                                           initialed by each
                                                                                  Personnel                                                                                                                                                                relevant functional
                                                                                                                                    Exit Checklist
                                                                                   Office                                                                                                                    User                                          manager


                                                        III. Account Review                                                                                                                                                                                       (d) Audit trail
                                                                                                                                                                                                                                                                  information should be




DHS Needs to Strengthen Controls For Remote Access
                                                                                              Employee Departures                                         Access List                                                                                             used to detect
                                                                                                                                                                                                   Access Approval List
                                                                                                                                                                                                                                                                  unauthorized, unusual,
                                                                                              (a) Personnel                                                                                                                                                       or sensitive access.
                                                                                                                                  System                                                         (c) System Owners review all
                                                                                              Office routinely                                                                                                                                                    Audit trails should be
                                                                                                                                Administrator                                     System         access levels for each user every
                                                                                              notifies Systems                                                                                                                                                    reviewed regularly and
                                                                                              Office of employee                                                                  Owner          month and sign an access
                                                                              Personnel                                      (b) Systems Office reviews and                                                                                           Security    suspected violations
                                                                                              departures to                                                                                      approval list
                                                                               Office                                        disables inactive accounts after a                                                                                       Manager     investigated.
                                                                                              verify that access             set period of inactivity, e.g., 90
                                                                                              has been removed               days
                                                                                                    Appendix D
                                                                                                    Account Policy Settings



                  Risk Associated     NIST and NSA                                               Actual Setting
                                                          DHS Required
Parameter            with Weak        Recommended
                                                            Setting
                   Policy Setting        Setting

Maximum
password age:
The period        Limiting
of time that a    password life
user is allowed   reduces the                              Less than 90                    Passwords      Passwords
                                      Less than 90 days                       90 days                                     45 days
to have a         likelihood of                               days                        never expire   never expire
password          unauthorized
before being      access
required to
change it.

Minimum           If changes
password age:     are allowed
Speciﬁes how      immediately,
long a user       a user could
                                                                                            Changes        Changes        Changes
must wait         change their
                                        At least 1 day     At least 1 day     14 days       allowed        allowed        allowed
after changing    password, then
                                                                                          immediately    immediately    immediately
a password        immediately
before            change it back
changing it       to what it was
again.            before.

Minimum
                  Blank                  High risk
password
                  passwords and        environments:
length: The
                  shorter length       12 characters
minimum                                                                          8
                  passwords are                            8 characters                   6 characters   5 characters   8 characters
number of                                                                    characters
                  easily guessed           Other
characters a
                  by password          environments:
password must
                  cracking tools.       8 characters
contain

                  Forcing users
Password          to change their
uniqueness/       passwords
history:          reduces the
Prevents          likelihood                                  4 to 6            24            5              10            24
                                        24 passwords
users from        that a hacker                             passwords        passwords    passwords      passwords      passwords
toggling among    or password
their favorite    cracker will
passwords         discover
                  passwords.

Account lockout
after # of bad    Establishing
logon attempts:   an account
Speciﬁes the      lockout threshold
number of bad     helps prevent            3 invalid          3 invalid      3 invalid    No account      12 invalid     3 invalid
logon attempts    password             attempts or less   attempts or less   attempts      lockout        attempts       attempts
that can be       cracking or
made before       guessing attacks
an account is     on the system.
locked out.




                            DHS Needs to Strengthen Controls For Remote Access                                           Page 23
Appendix D
Account Policy Settings



 Reset lockout
                     Setting the
 counter after
                     number of
 # of minutes:
                     minutes too low
 Speciﬁes the                               15 minutes or                               15          No account
                     may reduce the                               Not speciﬁed                                       30 minutes       15 minutes
 number of                                      more                                  minutes        lockout
                     effectiveness
 minutes until
                     of the account
 the bad logon
                     lockout control
 count is reset.

                     Setting the
 Lockout
                     number of
 duration: Sets                             15 minutes or
                     minutes too low
 the number                                 more, but not                               15          No account
                     may reduce the                                 Forever                                            Forever        15 minutes
 of minutes an                                          (a)                           minutes        lockout
                     effectiveness            forever
 account will be
                     of the account
 locked out.
                     lockout control
 (a)
       According to NSA, setting the lockout duration to forever may lead to a denial of service attack, i.e., a form of attacking another computer
       to prevent legitimate users of a system from using the computer or its services.




Page 24                                              DHS Needs to Strengthen Controls For Remote Access
                                                                             Number                                              Number of Vulnerabilities Detected(a)
                                                      Component              of Hosts
                                                                              Tested                     High Risk                              Medium Risk
                                                                                                                                                                                 Total
                                                                                                       Vulnerabilities                         Vulnerabilities

                                                                                 10                            13                                    12                             25

                                                                                 14                            21                                    52                             73

                                                                                 11                             4                                    14                             18

                                                                                 18                             8                                    10                             18



                                                                             Number                            Number of Hosts with High or Medium Risk Vulnerabilities(a)
                                                      Component              of Hosts                                           (Number and Percent)
                                                                              Tested              No                    1                 2                    3        4 or More        Total with 1
                                                                                              Weaknesses            Weakness          Weaknesses          Weaknesses   Weaknesses          or More




 DHS Needs to Strengthen Controls For Remote Access
                                                                                                   3                    1                                      3            3                 7
                                                                                 10                                                        0
                                                                                                (30%)                (10%)                                  (30%)         (30%)             (70%)
                                                                                                   7                    1                                      1            5                 7
                                                                                 14                                                        0
                                                                                                (50%)                 (7%)                                   (7%)         (36%)             (50%)
                                                                                                   7                                       1                                3                 4
                                                                                 11                                       0                                      0
                                                                                                (64%)                                    (9%)                             (27%)             (36%)
                                                                                                                                                                                                        Appendix E




                                                                                                    11                   1                 4                               2                  7
                                                                                 18                                                                              0
                                                                                                  (61%)                (6%)              (22%)                           (11%)              (39%)
                                                      (a)
                                                            Includes conﬁguration weaknesses and patch-related vulnerabilities
                                                                                                                                                                                                        Vulnerabilities Identiﬁed




Page 25
Appendix F
Major Contributors to This Report



                     Information Security Audits Division
                     Edward G. Coleman, Director
                     Patrick Nadon, Audit Manager
                     Chiu-Tong Tsang, Audit Team Leader
                     Jason Bakelar, Auditor
                     Pedro Calderon, Auditor
                     Evan Portelos, Associate
                     Anthony Nicholson, Referencer

                     Advanced Technology Division
                     Jim Lantzy, Director
                     Chris Hablas, Senior Security Engineer




Page 26                             DHS Needs to Strengthen Controls For Remote Access
                                                         Appendix G
                                                         Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Under Secretary, Management
DHS OIG Liaison
DHS Chief Information Security Ofﬁcer
DHS Public Affairs
CIO Audit Liaison
DHS Ofﬁce of Security
Director, Compliance and Oversight Program, OCIO

Ofﬁce of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Appropriate Congressional Oversight and Appropriations Committees




DHS Needs to Strengthen Controls For Remote Access                   Page 27
Page 28   DHS Needs to Strengthen Controls For Remote Access
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
